January 21, 2009

WILLIAM (ASHLEY) LYONS
MANAGER, CORPORATE FINANCIAL PLANNING

SUBJECT: Audit Report – Data Quality Issues with the City Carrier Street Time Study
         (Report Number CRR-AR-09-001)

This report presents the results of our audit of the City Carrier Street Time Study
(CCSTS) (Project Number 08RG012CRR000). Our objective was to evaluate the data
quality issues associated with the CCSTS presented to the Postal Regulatory
Commission (PRC) during the most recent rate cases, and raised by the PRC and other
interested parties. The Postal Accountability and Enhancement Act of 2006 (the Postal
Act of 2006) requires the U.S. Postal Service Office of Inspector General (OIG) to audit
the data collection systems and procedures the U.S. Postal Service uses in their pricing
process. This is a self-initiated audit that addresses both operational and financial risks.

The CCSTS we evaluated was performed in 2002 to establish time and variability
factors to use in attributing approximately $11.1 billion in Postal Service delivery costs.
Although updated data was obtained in 2004, the 2002 study was presented in both the
2005 and 2006 rate cases, and current pricing relies on this data. See Appendix A for
additional information about this audit.

Conclusion

The sample design for the CCSTS appears to be reasonable. Although management
reduced the sample size from the original sampling plan, we found no inherent
statistical problems with this reduction in sample size. However, the data collection
process needed better documentation and control. Numerous data quality issues
remained in the 1.317 million data records even after a rigorous data cleansing effort.
Additionally, the data cleansing process was not well controlled or documented and the
survey data is now more than 6 years old.

Data Collection Issues Resulted in Inaccuracies

We found errors such as time data scans outside the normal carrier delivery hours,
mismatched ZIP CodesTM and routes, incomplete volume and time pool data, and
anomalies in dates and the number of days in which volume and time pool data were
collected. These errors affected over 165,000, or 12.6 percent, of the time scan records
and 6,528, or 7.4 percent, of the volume records. Additionally, we estimate that about
6.6 percent more time pool records could have been collected had carriers received
Data Quality Issues with the City Carrier                                CRR-AR-09-001
 Street Time Study


adequate training and management exercised daily oversight of data collection
activities. See Appendix B for our detailed analysis of this topic.

Data Processing and Cleansing Procedures Were Not Well Controlled or
Documented

The data processing and cleansing effort, after the CCSTS sample data was collected,
needed better documentation and control. Management did not document the steps
taken to eliminate data errors or ensure that data files used in this process were
properly backed up. Management stated that, despite the missing and erroneous data,
they believe the study produced more than adequate data sets. See Appendix B for our
detailed analysis of this topic.

The Study Data May be Outdated

The CCSTS survey data is more than 6 years old, as the Postal Service has not
updated variability factors used in attributing city carrier street activity costs since the
2002 study. Since that time, there have been significant changes in city carrier street
activities due to changes in the mail mix, increased use of Delivery Point Sequencing
(DPS), bundle handling, and the increasing popularity of such innovations as the Click-
N-Ship package pickup program. Aged, incomplete or missing sampling data could
impact the variability factors applied to cost pools, which in turn, could result in
inaccurate allocation of costs among and rates for Postal Service products. See
Appendix B for our detailed analysis of this topic.

We recommend the Manager of Corporate Financial Planning:

1.   Consult with the Postal Regulatory Commission to begin the process of updating
     the City Carrier Street Time Study.

2.   Continue to solicit active participation and feedback from cross-functional
     organizations in designing and planning future data collection efforts. Involve the
     cross-functional team in assessing data collection tools and procedures, designing
     training materials and outreach programs, and monitoring and resolving data
     collection issues.

3.   Develop tools and procedures to monitor and assess data as it is being collected to
     identify and resolve individual and systemic data collection issues.

4.   Develop training programs to ensure that all personnel, including carriers,
     understand the importance of and procedures needed to collect reliable data.

5.   Ensure that all collected data is backed up and stored offsite.




                                            2
Data Quality Issues with the City Carrier                                CRR-AR-09-001
 Street Time Study


Management’s Comments

Management partially concurred with findings 1 and 2, concurred with finding 3, and
concurred with recommendations 1 through 5. In their general comments, management
stated they believe that carriers received extensive and productive training.
Management also provided additional comments on early scan dates and records with
missing data fields. Management’s comments, in their entirety, are included in
Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the
recommendations and management’s corrective actions should resolve the issues
identified in the report. We modified the report slightly to include management’s
clarification of carrier training, early scan dates, and records with missing data fields.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Paul Kuennen,
Director, Cost, Revenue and Rates, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: J. Ron Poland
    Jeffrey L. Colvin
    Katherine S. Banks




                                            3
Data Quality Issues with the City Carrier                                                  CRR-AR-09-001
 Street Time Study


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Prior to the enactment of the Postal Act of 2006, the Postal Service developed cost
information for each class of mail, rate category, and type of service for the purpose of
establishing rates for Postal Service products and services. Under the act, rate
increases for market-dominant Postal Service products are capped by the rate of
inflation.1 However, each class of mail or service is required to cover the direct and
indirect costs attributable to it. The Postal Service’s financial records do not provide all
the necessary information down to the subclass and extra service level to determine
product-specific costs. Therefore, the Postal Service uses various statistical systems
and special studies that provide data to develop cost estimates for Postal Service
operations.

The City Carrier Cost System (CCCS) is an ongoing data collection system that is used
to distribute portions of city delivery costs that are attributable to various classes and
subclasses of mail and extra services. The Cost and Revenue Analysis (CRA) report
uses variability factors determined by the 2002 CCSTS together with CCCS distribution
ratios developed using volume information collected in CCCS tests to distribute
attributable costs. The CCCS is used to distribute the attributable portion of salaries,
benefits, and related costs of city carriers for performing street activities for most of the
city delivery carrier routes to specific products and services.2

The information derived from the CCCS is a major input into the CRA report filed with
the PRC. City carrier street activity costs constitute $11.1 billion, or 49 percent, of the
$22.6 billion in the total delivery costs of the Postal Service. The Postal Service’s
Statistical Programs office, which is under Corporate Financial Planning, manages the
CCCS.

In 2002, the Postal Service conducted the CCSTS to establish new time pools and
variability factors. The Cost Attribution office under Corporate Financial Planning
sponsored the study, which spanned a 6-week period in May and June 2002. The
objective of the sample was to estimate the majority of variables of interest with a
coefficient of variation – the measure of the relative error of the estimate – of less than
10 percent. To reduce the cost of conducting the study, the Postal Service dropped the
sample size from 221 ZIP Codes to 167 ZIP Codes in two successive steps. In the first
step, the stratum consisting of more than 60 routes per ZIP Code was reduced from 48
to 12 by selecting every fourth ZIP Code. In the second step, the sample size was


1
  Under the new ratemaking rules the PRC established, the rate increases are capped by the U.S. Bureau of Labor
Statistics’ Consumer Price Index — All Urban Consumers (Order No. 43—Order Establishing Ratemaking
Regulations for Market Dominant and Competitive Products—Final Rules, Section 3010.12, Docket No. RM2007-1,
Postal Regulatory Commission, November 2007).
2
  The In-Office Cost System (another data collection system) determines the distribution of costs related to office
activities city carriers perform.




                                                 4
Data Quality Issues with the City Carrier                                                  CRR-AR-09-001
 Street Time Study


further reduced to 167 by selecting one ZIP Code per Finance number. This further
reduced the size of the stratum containing more than 60 routes to 10 ZIP Codes.
See Table 1 below.

                                        Table 1. Sample Size Reduction

                                                             Number of ZIP Codes
                                             Routes Per       Original   Revised
                               Strata         ZIP Code        Sample     Sample
                                 1          10 or less              33         29
                                 2          11 to 60               140        128
                                 3          More than 60            48         10
                                             Totals                221        167

As a first step to determine the time pools in the 2002 CCSTS, the study defined a set
of street activities consistent with the carrier operations that were measurable and
complete. During the study, carriers collected time data to determine the time taken to
perform various street activities and volume data of different classes and subclasses of
mail. Carriers used barcode scanners to scan up to 36 unique barcodes to indicate
when they changed from one activity to another. Each barcode represented a unique
route activity.

The volume data was collected in the following ways.

•   Most of the letters and flats delivery volume was collected using data from the
    Delivery Operations Information System (DOIS) and the Delivery Support
    Information System (DSIS).

•   Parcels, accountable mail, and collection mail volume data were manually recorded
    by carriers and carrier supervisors who entered the volume onto paper forms,
    normally using one form per route.3

The Postal Service calculated the time pools and their variability factors using the time
and volume data collected during the study. Time pools were determined by calculating
the portion of time carriers spend performing various route activities on the street. The
volume variability factors for each time pool were developed by measuring the
relationship between changes in activity time with respect to changes in volume. See
details of the city carrier cost process in Appendix C.

Prior to performing the calculations, the Postal Service performed data cleansing on the
raw time pool data file containing 1.48 million records. The PRC adopted the resulting
file containing 1.317 million records in Docket No. R2005-1 and reviewed and accepted
3
  This volume data is often measured in linear feet and inches and conversion factors are applied. Carriers and
supervisors added volume counts for pieces that required deviations and small parcels and accountables that
required customer contact. They also provided linear measurements of collected mail by shape and indicia for letters
and flats.




                                                5
Data Quality Issues with the City Carrier                                                 CRR-AR-09-001
 Street Time Study


it in Docket No. R2006-1. The Postal Service did not perform any data cleansing on the
volume data files. Although additional data to update the results was collected in
April 2004, and presented to the PRC upon request, the data was not used in Docket
No. R2006-1, or to update variability factors. Appendix B explains the 2004 CCSTS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the data quality issues associated with the CCSTS
presented to the PRC during the most recent rate cases, and raised by the PRC and
other interested parties. We conducted this performance audit from February 2008
through January 2009 in accordance with generally accepted government auditing
standards and included such tests of internal controls as we considered necessary
under the circumstances. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. We discussed our observations and conclusions with management officials
on December 8, 2008, and included their comments where appropriate. We used
manual and automated processes to assess the reliability of computer generated data
used for our analysis and concluded the data used were sufficient to support the audit
objective.

To obtain information on the study, we reviewed documentation obtained from the
Postal Service and the PRC. We also interviewed Postal Service personnel involved in
the study.

To evaluate the data quality issues, we obtained the original time pool data and the time
pool data submitted to the PRC. We also obtained the volume data files submitted to
the PRC, as well as other files the Postal Service used in their data analysis. We
performed an independent analysis of the data files and compared our results with data
quality issues raised by the PRC and other interested parties, such as the Office of
Consumer Advocate (OCA).4 We used automated data analysis techniques to compare
the time pool data and the respective volume data at the ZIP Code, route and date
levels.

The results of our analysis were in some instances similar to the issues stated by the
PRC and others; however, our analysis revealed additional data quality issues. We did
not evaluate the relationship between activity time and volume by shape, nor did we
review any data files related to the 2004 CCSTS.

PRIOR AUDIT COVERAGE

There were no prior audits of the CCSTS or the CCCS.
4
 The OCA is an office independent of the PRC and the Postal Service that represents the interests of the general
public in ratemaking proceedings.




                                                6
Data Quality Issues with the City Carrier                                           CRR-AR-09-001
 Street Time Study


                               APPENDIX B: DETAILED ANALYSIS

Data Collection Issues Resulted in Inaccuracies

The data from the 2002 CCSTS presented to the PRC contained numerous data quality
issues, even after data cleansing was performed. The data collection process was not
well controlled and as a result, there was uneven participation in the CCSTS by facilities
and carriers and inconsistent data collection by the carriers.

These data collection errors occurred for several reasons.

    •   The study coordinators from headquarters and the field received extensive
        training on their roles and responsibilities and how scanning and volume
        collection would be done. However, the carriers received limited training – only
        about an hour, which included reading the manual, a short group training
        session, and about 5 minutes of individual training.
    •   During the study, carriers entered time data by scanning up to 36 unique
        barcodes each day, depending on which activities they performed. The
        numerous required barcode scans may have confused many of the carriers. For
        example, the carriers were required to use a start and stop scan in transitioning
        from one activity to another, when only one scan may have been sufficient.
    •   There were no controls for supervisors to verify time pool scan data before it was
        uploaded to the mainframe.
    •   Finally, carriers were required to manually record volume data on parcels and
        accountable mail. We found many of the manually recorded forms difficult to
        read, which may have contributed to data entry errors.

The Postal Service stated it had controls in place, which included study coordinators
checking and verifying carriers’ mail counts and headquarters staff reviewing the scan
data for completeness. However, these controls were not always enforced as
evidenced by the numerous errors. The Postal Service later acknowledged that there
was “. . .no way for study supervisors to verify scans made by the carriers.”5

Issues with the data collection process resulted in incomplete volume and time pool
data, and anomalies in dates and the number of days in which volume and time pool
data were collected. We also found mismatched ZIP Codes and routes, and time data
scans outside the normal carrier delivery hours. These errors affected over 165,000, or
12.6 percent, of the time pool records and 6,528, or 7.4 percent, of the volume records.




5
 Opinion & Recommended Decision (Docket No. R2005-1), Appendix I, page 10, Postal Regulatory Commission,
November 1, 2005.




                                             7
Data Quality Issues with the City Carrier                                  CRR-AR-09-001
 Street Time Study


                          Table 2. Inconsistencies in Data Collection

                                                            Percent of Records Affected
                                                                            Letters
                                                          Parcels and      and Flats    Time
                      Type of Error                    Accountables (PA)     (LF)      Scans
 Time pool scans outside normal delivery hours                                           0.6
 Data collected for less than 11 days                         4.2             6.4        5.3
 Volume data collected prior to starting date                 0.8             0.8         -
 PA volume recorded but no time pool data                     1.4              -          -
 LF volume recorded but no time pool data                      -              1.3         -
 Time pool data recorded but no PA volume                      -               -         4.3
 Time pool data recorded but no LF volume                      -               -         1.5
 Time pool data recorded but no volume at all                  -               -         2.7
 Records with missing fields in time pool and volume           -               -         0.8
 observations

Uneven Participation in Data Collection

Although the CCSTS design scope encompassed 167 ZIP Codes and 3,736 routes,
participation in the data collection effort was uneven. For example, the revised
sampling plan for strata 3 (i.e., more than 60 carrier routes) encompassed 10 ZIP
Codes; however, an examination of the data files indicated that carriers in only six ZIP
Codes in strata 3 collected both time pool and volume data. Time pool data was
collected by carriers in nine ZIP Codes; but carriers in four ZIP Codes did not report any
parcels or accountable volume data, and carriers in three ZIP Codes did not report any
letters and flats volume data.

In general, the number of routes reporting parcels and accountable volume data should
match the number of routes reporting letters and flats volume data and time pool scans.
Development of automated tools (such as scripts) to examine the data as it was
collected and reported could be used to highlight facilities and carriers that are not fully
participating in the data collection sampling plan.

We noted that the number of ZIP Codes and routes reported in the parcel and
accountable data, letters and flats data, and time pool scan data were different. We
found that time pool scans were reported for 3,987 routes, or 251 more than in the
sample design. We also found differences in the number of routes collecting data for
parcels and accountable mail, and for letters and flats, as shown in Table 3.




                                            8
Data Quality Issues with the City Carrier                                       CRR-AR-09-001
 Street Time Study


                           Table 3. Number of ZIP Codes and Routes

                                      Parcels and      Letters    Time
                                     Accountables     and Flats   Scan     Sample
                       Number             File          File       File    Design
                     ZIP Codes                  159         161      165        167
                     Routes                   3,503       3,667   3,987       3,736

The number of routes reported for the same ZIP Code was different in different data
files. Fifty-four out of 161 ZIP Codes had differences in the number of routes within ZIP
Codes between the Parcel and Accountable volume data files and the Letter and Flats
data file. Additionally, 140 out of 165 ZIP Codes had differences in the number of
routes within ZIP Codes between the time pool data file and one or both of the volume
data files.

Inconsistencies in Data Collection

Data Collected For Less Than 11 Days

The study was intended to last for 14 calendar days, covering 11 to 12 business days
excluding holidays and Sundays, when no mail delivery occurs. However, we observed
that 589 of the 3,987 routes (15 percent) collected time pool data for less than 11 days,
289 of the 3,503 routes (8 percent) collected parcel and accountable volume data for
less than 11 days, and 96 of the 3,667 routes (3 percent) collected letters and flats
volume data for less than 11 days.

When this issue was raised in the R2005-1 rate case, the Postal Service stated that not
all routes provided data for all days for either scan data or the volume data. The PRC
stated that it was evident there were many routes for which sample data were
completely missing and others for which the sequence of sampled days was
incomplete. The pattern implied fairly large-scale reporting failures of various kinds as
CCSTS time data was collected. The Postal Service stated they understood and
accounted for the fact that there would be days where scan or volume data would not
be usable for a particular ZIP Code/route.

Collecting data for the full sampling period could improve the overall reliability of the
data. These routes generated 2,008 parcel and accountable volume records, 2,609
letters and flats volume records and over 70,000 time pool scan records. If these routes
collected volume and time data for at least 11 days, we estimate this could have
produced an additional 1,398 parcel and accountable records, 845 letter and flat
records, and 86,319 time pool scans.

Volume Data Collected Prior to Start Date

The official start date of the CCSTS was May 18, 2002. However, the data file
submitted to the PRC contained data for dates earlier than the start date. We found 345



                                             9
Data Quality Issues with the City Carrier                              CRR-AR-09-001
 Street Time Study


out of 40,668 (0.8 percent) records in the letters and flats volume data file, and 376 out
of 47,352 (0.8 percent) records in the parcels and accountable volume data file, dated
prior to the start date. We also found that 17 ZIP Codes had differences in the start and
end dates and the number of days the time pool data and volume data was collected.
For accurate results, the start and end dates and the number of days should be the
same for the time pool and volume data files. According to the Postal Service, this data
was deleted prior to the time scan pool and variability calculations.

Mismatches Between Volume and Time Pool Data

Not all time pool data were matched by corresponding volume data. We identified 646
of 47,352 records (1.4 percent) that had parcel and accountable volume recorded but
had no time pool data, and 544 of 40,668 (1.3 percent) records that had letters and flats
volume recorded but had no time pool data. Furthermore, 56,363 of 1.317 million
(4.3 percent) records had time pool data and letters and flats volume recorded but had
no parcel and accountable volume; and 20,057 of 1.317 million (1.5 percent) records
had time pool data and parcels and accountable volume data recorded, but had no
letters and flats volume data. Also, 35,907 of 1.317 million (2.7 percent) records had
time pool data recorded but had no volume data. One ZIP Code did not have any
volume data collected.

In the R2005-1 rate case, the Postal Service stated there were many occasions when
no time data was reported, even though mail was delivered for these routes. According
to the Postal Service, while the potential impact of this error could be significant at the
route level, these errors become less significant when the data is aggregated at the ZIP
Code level.

Management stated that the time scan data and volume data sets were first matched at
the route level, and only those matching scan time/volume pairs were included in the
ZIP Code level data. However, when the data is aggregated up to the ZIP Code level,
mismatch of time scan and volume data could result in not all routes in a ZIP Code
being included in a given day’s data. Thus, these inaccuracies in the data collection
process impact the eventual study results which continue to be used to attribute costs.

Missing Fields in Time Pool and Volume Observations

The time pool data file used in the rate case filing contained 11,119 records with
missing data fields. The missing fields included time data for delivery and collection for
curbline, Neighborhood Delivery and Collection Box Units, and central boxes for
business and residential areas. According to the Postal Service, not all routes include
these delivery types. We were unable to verify the delivery types in these routes
because an intermediate data file was not available. In the parcel and accountable
volume data file, there were approximately 34 records where the route number was
labeled with an “X” instead of a number, making it difficult to match with a corresponding
route number in the time pool data file.




                                            10
Data Quality Issues with the City Carrier                                               CRR-AR-09-001
 Street Time Study


Data Processing and Cleansing Procedures Were Not Well Controlled or
Documented

The Postal Service performed data cleansing on the raw data files to minimize errors
introduced during data collection. For example, missing route numbers or route
numbers entered in the wrong format required correction. Some ZIP Codes were
modified if more than one ZIP Code was assigned to a city. Management deleted
171,010 records from the raw time scan files, including 148,957 records that were
outside the survey time period. However, it appears the Postal Service did not alter the
corresponding volume data, other than masking the ZIP Codes, since the raw data and
the data submitted for the rate case contained the same number of volume records and
contained dates prior to the start date of the study.

Additionally, the Postal Service did not document the steps taken to cleanse the data
files. While programming codes were available for the computer program used to
convert the raw time pool data to the time pool data file the PRC submitted, no other
documentation was available explaining the changes made to the data and the
reasoning behind them. Management also did not use any data backup procedures to
ensure it did not lose critical data. Management did not have action plans to formally
document the cleansing efforts to remove the unanticipated errors, or to backup
intermediate data files. Best practices6 require that there should be defined policies and
procedures for the backup of systems, applications, data and documentation as well as
application controls over data integrity, validity, accuracy, and completeness. Not
having these controls resulted in the Postal Service losing one intermediate data file
containing ZIP Code information, which it used in the data conversion process. The
Postal Service was unable to provide us a copy of this data file. Loss of documentation
or data files could lead to the inability to recreate any data cleansing procedures.

The Study Data May be Outdated

The CCSTS survey data is more than 6 years old. There have been changes in the last
6 years in city carrier street activities due to changes in the mail mix, increased use of
DPS, bundle handling changes, and the increasing popularity of such innovations as the
Click-N-Ship package pickup program. For example, the Postal Service machine sorted
82.8 percent and 87.5 percent of all letters into DPS in FYs 2007 and 2008,
respectively. In 2010, the DPS goal increases to 95 percent. Significant changes are
continuing with the roll-out of the Flats Sequencing System, which will sequence flats
mail in delivery order. This implementation began in 2008, is to be completed by 2010,
and will change bundle handling processes, with particular impact on carriers on
walking sections of routes.

The PRC based its decisions in both the 2005 and 2006 rate cases on the data from the
2002 study. Current pricing analysis continues to use the 2002 data for the cost
6
  Control Objectives for Information and Related Technology, Version 4.1, Sections AC & DS11, IT Governance
Institute, 2007.




                                              11
Data Quality Issues with the City Carrier                             CRR-AR-09-001
 Street Time Study


attribution calculations. The PRC accepted the 2002 data, the resulting models and the
associated variabilities, despite substantial concerns about the quality of the 2002 data
and its effect on econometric modeling.

The Postal Service repeated the CCSTS in 2004 but continues to rely upon the
variability factors derived from the 2002 study. The goal of the 2004 study was to
determine whether a smaller sample size would yield comparable results to the 2002
study, thus simplifying the role of the data collectors. Although the sampling techniques
and data collection procedures were similar, the study included fewer ZIP Codes, the
study did not verify DOIS volume information, and collection and mail volumes were
recorded using container measures instead of linear feet and inches. In this study, the
carriers were given additional responsibilities, which included obtaining scans for
packages scheduled for pickup, hand recording pickup mail, and collecting scans to
indicate a route pivot while on the street. In addition, the 2004 study included careful
evaluation of time scan pairs that were difficult to assign. These additional measures
were intended to improve the reliability of the collected data. A comparison of the 2004
variability estimates with those based on the 2002 data revealed an increase in the
expected coefficient of variation from 4.9 percent to 6.1 percent; however, both were
within the targeted 10 percent coefficient of variation.

The existence of the 2004 study was revealed too late in the proceedings for the
Commission to use in the 2005 rate case. Similarly, the 2002 CCSTS data, the models
and the variabilities were used for the 2006 rate case because the Postal Service
responded too late to the PRC’s requests for additional analyses. Conducting a new
study will require the Postal Service to expend additional resources. Additionally, under
the Postal Act of 2006 environment, the Postal Service cannot unilaterally undertake
and implement changes in the carrier costing methodologies. Management stated that
they would work with the PRC in adopting a methodology for any new carrier study.

The Postal Act of 2006 requires an accurate determination of direct and indirect costs
attributable to each class of mail or type of mail service. The results of the CCSTS are
important because they are still used as the basis for allocating certain costs to
competitive and market-dominant products. Incomplete, missing, invalid or aged
sampling data could impact the variability factors applied to cost pools, which, in turn,
could result in inaccurate allocation of costs among and rates for Postal Service
products. Management stated that, despite the missing and erroneous data, they
believe the study, together with their data cleansing effort, produced more than
adequate data sets. However, the percentage of data quality issues remaining in the
cleansed data set, combined with changes that have occurred in the delivery
environment subsequent to the completion of this study, indicate that another study may
be warranted.




                                            12
Data Quality Issues with the City Carrier             CRR-AR-09-001
 Street Time Study


       APPENDIX C: RELATIONSHIP OF CITY CARRIER STREET TIME STUDY
                    AND THE CITY CARRIER COST SYSTEM




                                            13
Data Quality Issues with the City Carrier                    CRR-AR-09-001
 Street Time Study


                         APPENDIX D: MANAGEMENT’S COMMENTS




                                            14
Data Quality Issues with the City Carrier        CRR-AR-09-001
 Street Time Study




                                            15
Data Quality Issues with the City Carrier        CRR-AR-09-001
 Street Time Study




                                            16
Data Quality Issues with the City Carrier        CRR-AR-09-001
 Street Time Study




                                            17
Data Quality Issues with the City Carrier        CRR-AR-09-001
 Street Time Study




                                            18
